           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS
         CLAIMED BY THE
      WASHINGTON DISABILITY
     DETERMINATION SERVICES

   March 2008      A-09-07-17103




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM
Date:      March 20, 2008                                                            Refer To:

To:        Don Schoening
           Regional Commissioner
            Seattle

From:      Inspector General

Subject:   Administrative Costs Claimed by the Washington Disability Determination Services
           (A-09-07-17103)


           OBJECTIVE
           Our objectives were to (1) evaluate the Washington Disability Determination Services’
           (WA-DDS) internal controls over the accounting and reporting of administrative costs,
           (2) determine whether costs claimed by WA-DDS were allowable and funds were
           properly drawn, and (3) assess limited areas of the general security controls
           environment.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the
           wage earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are required to be performed by disability
           determination services (DDS) in each State or other responsible jurisdiction in
           accordance with Federal law and underlying regulations. 1 In carrying out its obligation,
           each DDS is responsible for determining claimants’ disabilities and ensuring adequate
           evidence is available to support its determinations. To assist in making proper disability
           determinations, each DDS is authorized to purchase medical examinations, x-rays, and
           laboratory tests on a consultative basis to supplement evidence obtained from the
           claimants’ physicians or other treating sources.

           1
               42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Don Schoening

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payment system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the
Cash Management Improvement Act of 1990. 3 An advance or reimbursement for costs
under the program must comply with Office of Management and Budget Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments. At the end of each
quarter of the fiscal year (FY), each DDS submits a Form SSA-4513, State Agency
Report of Obligations for SSA Disability Programs, to account for program
disbursements and unliquidated obligations.

WA-DDS is a component of the Washington Department of Social and Health Services
(DSHS). For FYs 2005 and 2006, WA-DDS had about 241 employees and an
authorized budget of $65.4 million for administrative costs. As of November 14, 2006,
WA-DDS reported total disbursements of $62.9 million and unliquidated obligations of
$2.5 million.

RESULTS OF REVIEW
We found that WA-DDS had effective controls over the accounting and reporting of
administrative costs, and its general security controls environment was effective. In
addition, the costs claimed by WA-DDS were generally allowable, and funds were
properly drawn. However, SSA would have saved approximately $1.2 million in indirect
costs had self-insurance premiums been allocated to WA-DDS based on historical
losses rather than full-time equivalent (FTE) employees. Furthermore, if the allocation
methodology is changed, we estimate that SSA could realize $303,211 in program
savings over the next 12 months.

Indirect Costs

Federal cost standards state that expenditures may be allocated to a particular program
if the goods or services are charged in accordance with relative benefits received. 4
Furthermore, the Federal cost standards state that, if individual departments or
agencies of the government unit experience significantly different levels of claims for
particular risk, those differences are to be recognized by the use of separate allocations
or other techniques resulting in an equitable allocation. 5 According to DSHS’ Cost
Allocation Plan, self-insurance premiums are accumulated in a departmental indirect
cost pool that is allocated to components based on FTEs.

2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058 (in part amending 31 U.S.C. §§ 3335, 6501 and 6503).
4
    OMB Circular A-87, Attachment A, § F.1.
5
    OMB Circular A-87, Attachment B, § 22.d(4).
Page 3 – Don Schoening

Allocation of Self Insurance Premiums

The State of Washington’s Office of Financial Management and Risk Management
(OFMRM) manages the self-insurance program that insures State agencies against tort
claim judgments, settlements and defense costs arising from general liability, and
vehicle accidents for which the agencies are found to be wholly or partially negligent.
OFMRM sets and collects the self-insurance premiums and allocates those premiums to
DSHS and other State departments based on their 5-year history of losses.

Although OFMRM allocates self-insurance premiums to DSHS based on historical
losses, DSHS allocates the premiums to its components based on staffing levels. As
shown in the table below, WA-DDS was charged $1.3 million, or 1.31 percent, of the
$99,328,252 in self-insurance premiums that had been allocated to DSHS between
July 2003 and June 2007.

            Allocation of Premiums for Self-Insurance Based on FTEs

        Component           Premium Amount Paid         Percent of Payment
        WA-DDS                       $ 1,302,239                       1.31
        Other DSHS                    98,026,013                      98.69
        Total                        $99,328,252                      100.0

To determine whether DSHS’ allocation of self-insurance premiums was charged in
accordance with the relative benefits received, we requested the number of claims filed
against WA-DDS for the period July 2003 through June 2007. Subsequently, we were
provided information on four claims filed in this period involving WA-DDS. Of the four
claims, two had been settled, representing about 0.31 percent of the total cases in
which claims had been paid. These two cases had been settled for a total of $40,782 of
the $43.4 million paid on DSHS claims. As shown in the table below, these two cases
accounted for 0.09 percent of the total amount settled on DSHS cases. The remaining
two cases were pending at the time of our audit.

                 Historical Losses for Self-Insurance Claims Paid

     Component             Claims Paid     Amount paid        Percent of Total
     WA-DDS                          2      $     40,782                   0.09
     Other DSHS                    635        43,419,380                  99.91
     Total                         637      $43,460,162                     100
Page 4 – Don Schoening

We found that DSHS’ charges for self-insurance premiums based on FTEs were not in
accordance with relative benefits received, as required by Federal cost standards. 6 In
addition, if the self-insurance premium allocation was based on historical losses,
WA-DDS would have paid a significantly lower premium. As shown in the table below, if
WA-DDS claims paid from July 2003 through June 2007 are representative of its
historical losses, WA-DDS would have only paid $89,395 for self-insurance premiums
instead of the $1,302,239 in payments based on FTEs. The resulting savings would
have been $1,212,844 ($303,211 per year). Finally, if DSHS changes its allocation
methodology based on historical losses, we estimate SSA could realize $303,211 in
program savings over the next 12 months.

        Self-Insurance Premium Savings - Allocation Based on Historical Losses
       Allocation Methodology and         Total       Percent of     Premium
       Premium Savings                  Premium        Premium       Payable
       FTEs                             $99,328,252         1.31     $1,302,239
       Historical Losses                $99,328,252         0.09         89,395
       Premium Savings                                               $1,212,844

CONCLUSION AND RECOMMENDATION
Our review disclosed that SSA would have saved approximately $1.2 million of indirect
costs if self-insurance premiums had been allocated to WA-DDS based on historical
losses rather than FTEs. Over the next 12 months, we estimate SSA could realize
$303,211 in program savings. Therefore, we recommend that SSA instruct DSHS to
revise its cost-allocation plan to charge self-insurance premiums in accordance with the
relative benefits received (for example, allocating based on historical losses).

AGENCY COMMENTS
SSA and DSHS agreed with our recommendation. See Appendices C and D for the full
text of SSA’s and DSHS’ comments.




                                                   Patrick P. O’Carroll, Jr.




6
    OMB Circular A-87, Attachment A, § F.1.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – The Social Security Administration’s Comments

APPENDIX D – The Washington Department of Social and Health Services’ Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
Act             Social Security Act
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
FY              Fiscal Year
OFMRM           Office of Financial Management and Risk Management
OIG             Office of the Inspector General
OMB             Office of Management and Budget
Pub. L. No.     Public Law Number
WA-DDS          Washington Disability Determination Services
DSHS            Washington Department of Social and Health Services
SSA             Social Security Administration
SSA Form-4513   State Agency Report of Obligations for SSA Disability Programs
SSI             Supplemental Security Income
Treasury        Department of Treasury
                                                                        Appendix B

Scope and Methodology
SCOPE

We reviewed the administrative costs reported to the Social Security Administration
(SSA) by the Washington Disability Determination Services (WA-DDS) on the State
Agency Report of Obligations for SSA Disability Programs (Form SSA-4513) for Federal
Fiscal Years (FY) 2005 and 2006. As of November 14, 2006, WA-DDS had reported
the following disbursements and unliquidated obligations on its Forms SSA-4513.

                      Category                          FY 2005              FY 2006
    Disbursements
      Personnel Costs                                    $16,695,826         $16,835,875
      Medical Costs                                       10,737,216           8,891,538
      Indirect Costs                                       1,376,196           1,432,110
      All Other Nonpersonnel Costs                         3,597,136           3,323,122
      Total Disbursements                                 32,406,374          30,482,645
    Unliquidated Obligations                                   8,227           2,464,034
    Total Obligations                                    $32,414,601         $32,946,679

To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent sections of SSA’s
    Program Operations Manual System, and other criteria relevant to administrative
    costs claimed by WA-DDS and drawdowns of SSA program funds.

•   Reviewed Washington Department of Social and Health Services (DSHS) policies and
    procedures related to Personnel, Medical, Indirect, and All Other Nonpersonnel Costs.

•   Interviewed employees from the SSA regional office, DSHS, and WA-DDS.

•   Reviewed the Single Audit of the State of Washington for the FY ended June 30,
    2006.

•   Obtained an understanding of the internal control structure to plan the audit and to
    determine the nature, timing, and extent of the tests to be performed.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures.




                                             B-1
•   Examined the administrative costs incurred and claimed by DSHS for Personnel,
    Medical, Indirect, and All Other Nonpersonnel Costs during FYs 2005 and 2006.

•   Reconciled the accounting records to the administrative costs reported by DSHS on
    the Forms SSA-4513 for FYs 2005 and 2006.

•   Selected a random sample of Personnel, Medical, and All Other Nonpersonnel Costs.

•   Verified indirect costs for FYs 2005 and 2006 based on the approved indirect cost
    allocation plan.

•   Conducted a limited examination of WA-DDS’ general security controls environment.

We determined the electronic data used in our audit were sufficiently reliable to achieve
our audit objectives. We assessed the reliability of the electronic data by reconciling
them with the costs claimed on the Form SSA-4513. We also conducted detailed audit
testing on selected data elements from the electronic files.

We performed audit work at the WA-DDS in Tumwater, Washington. We conducted
fieldwork between April and November 2007. We conducted our audit in accordance
with generally accepted government auditing standards.

SAMPLING METHODOLOGY

Our sampling methodology included the three general areas of costs as reported on
SSA Forms-4513: (1) Personnel, (2) Medical, and (3) All Other Nonpersonnel Costs.
We obtained computerized data from WA-DDS for FYs 2005 and 2006 for use in
statistical sampling.

Personnel Costs

We sampled 50 employee salary items from 1 randomly selected pay period in
FY 2006. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure WA-DDS correctly paid employees
and adequately documented these payments.

We reviewed all medical consultant costs from one randomly selected pay period in
FY 2006. We determined whether costs were reimbursed properly and ensured the
selected medical consultants were licensed.




                                            B-2
Medical Costs

We sampled 100 medical evidence of record and consultative examination expenses
(50 items from each FY) using a stratified random sample. We distributed the sample
items between medical evidence of records and consultative examinations based on the
proportional distribution of the total medical costs for each year. We determined
whether sampled costs were properly reimbursed.

All Other Nonpersonnel Costs

We stratified All Other Nonpersonnel Costs into 10 categories: (1) Occupancy,
(2) Contracted Costs, (3) Electronic Data Processing (EDP) Maintenance, (4) New EDP
Equipment, (5) Equipment, (6) Communications, (7) Applicant Travel, (8) DDS Travel,
(9) Supplies, and (10) Miscellaneous. We selected a stratified random sample of
50 items from each FY based on the percentage of costs in each category (excluding
the rent portion of Occupancy) to total costs. We also performed a 100-percent review
of the rent portion of Occupancy expenditures.




                                         B-3
                                   Appendix C

The Social Security Administration’s Comments
                                  SOCIAL SECURITY
MEMORANDUM
DATE:          March 10, 2008

TO:            Inspector General
               Office of the Inspector General

FROM:          Regional Commissioner
               Seattle Region

SUBJECT:       Administrative Costs Claimed by the Washington Disability Determination
               Services
               (A-09-07-17103) --- REPLY

This responds to the draft report of the Office of the Inspector General (OIG) audit of the
Washington Disability Determination Services (WA-DDS) Administrative Costs (A-09-07-17103).
Our comment to the one recommendation listed in the report is provided below.
        Recommendation: Instruct the Department of Social and Health Services (DSHS) to
        revise its cost-allocation plan to charge self-insurance premiums in accordance with the
        relative benefits received (for example, allocating based on historical losses).
        Response: We concur. We will request that the Department of Health and Human
        Services, Division of Cost Allocation, revise the indirect cost agreement so that self-
        insurance premiums are assessed based on the WA-DDS’s risk factors and not their
        share of the Agency’s full time equivalent employees.
We appreciate the opportunity to comment on the audit recommendation. If members of your
staff have any questions regarding our comments, please have them contact Dale McGruder,
Center for Disability, via email as SF-Exchange or by phone at 206-615-2148.


                                         Don Schoening
                                  Appendix D

The Washington Department of Social and
Health Services’ Comments
From: Kero, Peggy [mailto:KEROP@dshs.wa.gov]
Sent: Tuesday, February 26, 2008 2:41 PM
To: Klein, Jim
Cc: MARSHBURN, Stan (DSHS/FSA); GRIPP, Joanne (DSHS/FSA)
Subject: DSHS Response to Draft Report "Administrative Costs Claimed by the Washington Disability
Determination Services"

The following response to the draft report (A-09-07-17103) is being sent on behalf on DSHS Secretary
Robin Arnold-Williams. If you have any questions, please feel free to contact Stan Marshburn, Chief
Financial Officer, at (360) 902-8181. Thanks.


Administrative Costs Claimed by the Washington Disability Determination Services
Audit Report Number A-09-07-17103
DSHS Response

Allocation of Self Insurance Premiums

Audit Recommendation:

That SSA instructs DSHS to revise its cost allocation plan to charge self-insurance premiums in
accordance with the relative benefits (for example, allocating based on historical losses).

DSHS Response:

The Department of Social and Health Services will work with the state of Washington’s Office of Financial
Management to identify the methods and classifications used to calculate the agency’s annual premium.
Based on that work and level of data available, DSHS will then review its current methodology for
allocating Self-Insurance Liability Program (SILP) and determine if a more appropriate method is
available.



Peggy Kero, Executive Assistant
DSHS - Office of the Secretary
Phone: (360) 902-7781
Fax: (360) 902-7848
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

For additional copies of this report, please visit our web site at http://ww.ssa.gov.oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-09-07-17103.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.


                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
